<html>
<title> - LEGISLATION TO IMPROVE CONSUMER PRODUCT SAFETY FOR CHILDREN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
      LEGISLATION TO IMPROVE CONSUMER PRODUCT SAFETY FOR CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                         H.R. 2474, H.R. 1699,
                          H.R. 814, H.R. 1721

                               __________

                              JUNE 6, 2007

                               __________

                           Serial No. 110-52


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
42-256 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

                 Bud Albright, Minority Staff Director

                                  (ii)
        Subcommittee on Commerce, Trade, and Consumer Protection

                   BOBBY L. RUSH, Illinois, Chairman
JAN SCHAKOWSKY, Illinois             CLIFF STEARNS, Florida,
    Vice Chairman                         Ranking Member
G.K. BUTTERFIELD, North Carolina     J. DENNIS HASTERT, Illinois
JOHN BARROW, Georgia                 ED WHITFIELD, Kentucky
BARON P. HILL, Indiana               CHARLES W. ``CHIP'' PICKERING, 
EDWARD J. MARKEY, Massachusetts          Mississippi
RICK BOUCHER, Virginia               VITO FOSSELLA, New York
EDOLPHUS TOWNS, New York             GEORGE RADANOVICH, California
DIANA DeGETTE, Colorado              JOSEPH R. PITTS, Pennsylvania
CHARLES A. GONZALEZ, Texas           MARY BONO, California
MIKE ROSS, Arkansas                  LEE TERRY, Nebraska
DARLENE HOOLEY, Oregon               SUE WILKINS MYRICK, North Carolina
ANTHONY D. WEINER, New York          MICHAEL C. BURGESS, Texas
JIM MATHESON, Utah                   MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana          JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
 Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
 Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     3
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     5
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     6
Hon. Baron P. Hill, a Representative in Congress from the State 
  of Indiana, opening statement..................................     7
Hon. Dennis Moore, a Representative in Congress from the State of 
  Kansas, opening statement......................................     8
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, prepared statement....................    11
H.R. 814, to require the Consumer Product Safety Commission to 
  issue regulations mandating child-resistant closures on all 
  portable gasoline containers...................................    12
H.R. 1699, to direct the Consumer Product Safety Commission to 
  require certain manufacturers to provide consumer product 
  registration forms to facilitate recalls of durable infant and 
  toddler products...............................................    15
H.R. 1721, to increase the safety of swimming pools and spas by 
  requiring the use of proper anti-entrapment drain covers and 
  pool and spa drainage systems, by establishing a swimming pool 
  safety grant program administered by the Consumer Product 
  Safety Commission to encourage States to improve their pool and 
  spa safety laws and to educate the public about pool and spa 
  safety, and for other purposes.................................    21
H.R. 2474, to provide for an increased maximum civil penalty for 
  violations under the Consumer Product Safety Act...............    34

                               Witnesses

Edmund Mierzwinski, consumer program director, U.S. Public 
  Interest Research Group, Washington, DC........................    35
    Prepared statement...........................................    37
Sally Greenberg, senior product safety counsel, Consumers Union, 
  Washington, DC.................................................    42
    Prepared statement...........................................    45

                           Submitted Material

Nancy A. Nord, Acting Chairman, U.S. Consumer Product Safety 
  Commission, submitted statement................................    66
    Answers to submitted questions...............................    83
Thomas Moore, Commissioner, U.S.Consumer Product Safety 
  Commission, answers to submitted questions.....................   102
David Asselin, executive director, Council of Manufacturing 
  Associations for the NAM CPSC Coalition, letter of June 6, 2007 
  to Messrs. Rush and Stearns....................................   109


LEGISLATION TO IMPROVE CONSUMER PRODUCT SAFETY FOR CHILDREN, H.R. 2474, 
                   H.R. 1699, H.R. 814, AND H.R. 1721

                              ----------                              


                        WEDNESDAY, JUNE 6, 2007

                House of Representatives,  
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
room 2123, Rayburn House Office Building, Hon. Bobby L. Rush 
(chairman) presiding.
    Present: Representatives Schakowsky, Hill, Stearns, 
Whitfield and Burgess.
    Also present: Representatives Moore of Kansas, and 
Wasserman Schultz.
    Staff present: Judith Bailey, Christian Tamotsu Fjeld, 
Angela E. Davis, Will Carty, Shannon Weinberg, and Matt 
Johnson.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The Subcommittee on Commerce, Trade and Consumer 
Protection will come to order.
    The subject of our gathering today is to conduct a hearing 
on legislation to improve consumer product safety for children: 
H.R. 2474, H.R. 1699, H.R. 814, and H.R. 1721.
    The Chair recognizes himself for 5 minutes for an opening 
statement.
    One of the most critical subjects in this subcommittee's 
jurisdiction is consumer product safety, especially the safety 
of our children and the products that they use. As I noted at 
the oversight hearing this subcommittee held last month, I 
regard this aspect of our jurisdiction very seriously. I intend 
to initiate comprehensive reform of the Nation's children 
product safety system during this 110th Congress. We could do 
no less for our children. Today's hearing is a first step. We 
are considering four bills. Each has a limited and rather 
targeted goal. More importantly, all of the bills enjoy 
bipartisan support.
    H.R. 2474 gives the Consumer Product Safety Commission an 
additional tool to enforce product safety by raising the 
overall cap on civil penalties that we can impose from the 
current $1.83 million to $20 million. This is the same increase 
that the Senate passed in 2003 as part of a CPSC 
reauthorization bill.
    Second, we will consider H.R. 1699, introduced by 
Representatives Schakowsky and Upton, and it will require the 
CPSC to promulgate regulations to require manufacturers of 
defined nursery products--cribs, strollers and the like--to 
include postage-paid postcards for consumers to fill out so 
they can be notified directly in the event of a product recall. 
This bill adds one more tool to accomplish an effective recall 
of dangerous products. It is modeled after the car seat recall 
system used by the National Highway and Traffic Safety 
Administration. With privacy concerns in mind, this bill 
specifically prohibits information provided by consumers from 
being used for any other purpose.
    Third, H.R. 814, introduced by Representatives Moore and 
Bachus, requires the CPSC to promulgate regulations to require 
child safety resistant caps on portable gasoline cans, cans 
sold empty. The current requirements inexplicably do not apply 
unless the cans already have the dangerous product inside.
    Finally, H.R. 1721, introduced by Representatives Wasserman 
Schultz and Wolf, requires the CPSC to promulgate regulations 
to require antientrapment drain covers for swimming pools to 
prevent a particularly horrible form of drowning. It also 
requires the CPSC to establish a grant program for the States 
to encourage them to enact laws that mandate greater improved 
safety, including laws requiring adequate fencing and other 
barriers to entry.
    At this time, it is my honor and privilege to acknowledge 
the presence in the hearing room of Ms. Nancy Baker. Both Ms. 
Baker and her father-in-law, Secretary James Baker, are strong 
supporters of the pool and spa bill. Please note that the 
terrible tragedy that took the life of their daughter and 
granddaughter has been a major inspiration for the reforms set 
forth in this bill.
    Ms. Baker, please accept our condolences. We intend to make 
sure that your tragic loss was not in vain, and we will use 
that as a springboard to ensure that we prevent losses in the 
future of that kind. We thank you for your presence at this 
hearing.
    I hope that we can have a full discussion on these bills in 
today's hearing. Let me emphasize that I want to work with the 
entire subcommittee on a bipartisan basis to make any technical 
or other changes and improvements to the bills and then move 
quickly to markup. As I said, these four bills are only a first 
step. In the months ahead, I hope to conduct a comprehensive 
review of the Agency's basic statutory authority and to craft 
the necessary reforms. Once again, I hope to do this on a 
bipartisan basis with the assistance of the CPSC, consumer 
advocates and industry groups. It is time now that we show the 
American people that we are serious about our children's 
product safety.
    Before we begin, let me just take leave to share a word on 
our witnesses. We have two who are presenting oral testimony. 
We also have written testimony from Ms. Nancy Nord, the Acting 
Chairman of the Consumer Product Safety Commission. We invited 
the CPSC to send a representative to provide oral testimony at 
the hearing. Originally Ms. Nord elected to respond to that 
request and to testify in person. Yesterday we decided we 
needed to collapse the hearing into one panel because of the 
time restraints presented by today's floor consideration of 
H.R. 964, the spyware bill, for which I will serve as the 
manager. When Ms. Nord learned that we needed her to testify on 
the same panel with the other two witnesses, she declined to 
appear in person or, alternatively, to send another CPSC 
representative.
    We regret her decision not to have a CPSC witness at this 
hearing. Although, perhaps unusual, we have had to have one-
panel hearings in the past and have mixed government witnesses 
with other witnesses such as the March 9 hearing on pretexting. 
In the future we will need the full participation of all of 
those at the CPSC and its leadership as we work to improve our 
Nation's consumer product safety system. I very much hope that 
the CPSC will be able to help us promote children's product 
safety and to look out for the needs of all of our consumers.
     With that, I recognize the ranking member of the 
subcommittee, my friend from Florida, Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman. Let me just thank you 
again for holding this hearing. I think I will move right to 
your last point.
    As all of us know, CPSC Acting Chairwoman Nord was 
scheduled to appear today. She is not because the majority 
staff would not afford her the opportunity and courtesy of 
having the head of a Federal agency testify separately from 
nonadministration witnesses. This has been the precedent of 
this committee as long as I was chairman and going back with 
our staff for 15 to 20 years. So I understand there has been a 
misunderstanding of, perhaps, the committee staff of the 
majority in trying to increase witness participation because of 
time constraints, and I fully take the chairman at his word, 
but mixing a chairperson of a major Federal agency has never 
been done. It has always been on a separate hearing. We did 
that under the Clinton administration when I was in the 
majority.
    So I think we had a little misunderstanding. I hope, in the 
future, that the acting chairwoman will be called back and will 
be given the opportunity and afforded the opportunity and 
courtesy of having her testify separately from 
nonadministration witnesses.
    Having said that, it is important that, I think as you 
pointed out directly here, we examine these issues on these 
four bills. So I commend you for taking the time. We do not 
have a lot of time, but it is important that we have a hearing 
on this. We both know we have the spyware bill on the floor, 
and we are both eager to try and move that forward. That bill 
is on a Suspension Calendar today. The Social Security number 
protection bill, the pretexting bill and your commitment to 
move the data security bill by regular order is all in order, 
too. So I commend you for this full agenda.
    One thing we also are a little concerned about is finding 
one witness that has an interest in all four bills from 
gasoline containers to increasing civil fines was extremely 
difficult, in addition to finding a witness given the short 
holiday workweek last week. For example, if we had 10 bills on 
the hearing, would we still only get one witness? What happens 
if we had 20 bills? So I think what would be helpful for our 
side is if we had an opportunity to have a different witness 
comment on each of these four bills instead of one witness to 
comment on the four bills.
    So, normally, I would assume a legislative hearing would be 
held on each individual bill. Absent that, I would hope a 
hearing on multiple bills will be structured in a manner that 
permits the Republicans an opportunity to present a witness for 
each bill if the majority does not invite witnesses who 
represent those businesses who may have to operate under the 
proposed regulations.
    This is an opportunity for freedom of thought, for freedom 
of opinion, and for letting the minority have an opportunity to 
have some authority on these bills. I hope we can have such an 
opportunity in the future so that we can continue as you and I 
work in a bipartisan way to develop legislation out of this 
committee.
    That being said, Mr. Chairman, the legislation before us 
today is important, as you mentioned. All of the bills before 
us in some way involve the important work on the Consumer 
Product Safety Commission. It is no secret that anything 
involving children and consumer products tends to stir emotion 
in a manner that usually leads our protective nature to shield 
our children from harm. After all, that is part of the reason 
the CPSC was created in the first place, to provide a mechanism 
to ensure that consumer products in the marketplace are safe. 
Nobody wants to find that a product they can purchase at the 
local store is unsafe and creates a hazard for our young 
children, and nothing is more tragic than a life that ends 
prematurely, especially when it ends due to a foreseeable 
hazard. But our job is to evaluate the legislation on the 
merits, regardless of how we feel about the subject matter, and 
make any necessary recommendations or changes.
    The legislation we examine today addresses four discrete 
issues: an increase in civil penalties the CPSC can levy, 
mandatory product registration for child nursery items, a 
uniform safety cap for gasoline containers, and pool and spa 
safety standards. Everyone wants to make sure that our children 
are safe, and that unscrupulous people who attempt to evade 
laws and standards are punished.
    I wholeheartedly support improved safety standards and 
punishing wrongdoers, but I have some questions about aspects 
of the relative legislation that I hope will be explored during 
our question-and-answer period to our witnesses. I intend to 
submit written questions directed to the CPSC.
    I ask, Mr. Chairman, unanimous consent that the 
Commission's responses be added as part of the record here 
today.
    Mr. Rush. So ordered.
    Mr. Stearns. The CPSC has performed an invaluable service 
to our country under a rare formula that has proven very 
successful. Voluntary standards promulgated and adhered to by 
industry can, and usually do serve as a de facto standard. With 
the aid of established industry standard-setting bodies, the 
workload of the CPSC is effectively delegated in many cases and 
obviates the need for formal CPSC rulemaking that would consume 
their valuable time and resources that could be spent more 
productively elsewhere.
    So I look forward to the hearing today, Mr. Chairman, and I 
appreciate our being able to expedite this hearing so we can 
get our spyware on the floor. Thank you.
    Mr. Rush. The Chair now recognizes the gentle lady from 
Illinois Ms. Schakowsky for 5 minutes.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you so much, Chairman Rush, for 
holding today's hearing on four important bills that would 
protect children from needless harm and everyday dangers. I am 
especially grateful that you included my bill, H.R. 1699, the 
Danny Keysar Child Product Safety Notification Act, or Danny's 
Act.
    As we heard at last month's hearing on children's products, 
because of lax laws and inadequate protections, dangerous and, 
in fact, deadly products are being made and sold for use by 
children. It is past due that we give parents the security they 
deserve and children the safety they need.
    The importance of enacting stronger protections cannot be 
overstated. Unintentional injuries are the leading cause of 
death among children, and for every such injury that is fatal, 
approximately 18 children are hospitalized, and 1,250 are 
treated by emergency departments. According to the Consumer 
Product Safety Commission--I have in my testimony--who is not 
with us here today, an average of 61 children under the age of 
5 die each year in incidents associated with nursery products. 
Of 318 consumer products recalled by the CPSC in 2006, 111, or 
35 percent, were items intended for use by or in the care of 
children.
    My bill, Danny's Act, would help prevent those needless and 
preventable injuries and deaths by making the recall of 
children's products more effective. H.R. 1699 would require 
that each durable infant and toddler product--and we name 
them--high chairs, cribs and strollers, et cetera--come with a 
postage-paid recall registration card. This will allow the 
manufacturers to directly contact each parent who bought their 
product should any problem arise that could put their children 
at risk.
    Although there is a shocking number of recalled products, 
our current recall system is failing. Actual notice of a recall 
is dependent on news outlets' picking up the story and 
spreading the word. Notification targeted to owners of the 
product is rare, and many parents remain unaware of dangers 
even when products are recalled. In fact, many families still 
have the dangerous products listed in this report in their 
homes because they have not happened to turn on the television 
at the right time or to read the right newspaper.
    My colleague, Representative Fred Upton, and I named our 
bill that would help solve this problem the Danny Keysar Child 
Product Safety Notification Act because his story is a tragic 
example of the inadequacy of our current recall practices. 
Danny Keysar, the precious 17-month-old son of Linda Ginzel and 
her husband Boaz Keysar, died when the Playskool Travel Lite 
portable crib he had been napping in at his babysitter's home 
collapsed. The rails of the crib folded into a V-shaped wedge 
when he stood up, trapping his neck, and he was strangled to 
death. It was May 12th, 1998, 5 years after the CPSC had 
ordered it off the shelves because it was so dangerous. Word of 
its hazard had not reached Danny's parents, the caregiver with 
whom he was staying or the State safety inspector who visited 
the home just 8 days before Danny's death. Had Danny's Act been 
in effect, there would have been a much greater chance of 
saving Danny's life and the lives of six children who have 
since died from the Travel Lite.
    We know that, while not the one and only answer, recall 
registration cards are an inexpensive and effective way of 
getting the word out. My bill is modeled after the National 
Highway and Transportation Safety Administration's recall 
system for car seats. Since NHTSA started requiring car seats 
to have registration cards in 1993, the number of families 
registering increased by at least tenfold. Recall repair rates 
have gone up 56 percent, all for a mere 43 cents per item. This 
bill will give families a much greater chance to repair, return 
or discard any dangerous products that have made it into the 
children's nurseries.
    Finally, I would like to express my support for my 
colleagues' bills that are being considered. Mr. Rush's bill, 
H.R. 2474, would raise the cap on civil penalties for knowingly 
violating CPSC requirements so that getting caught violating 
safety requirements could not be written off as simply the cost 
of doing business. The Children's Gasoline Burn Prevention Act, 
which would extend the requirement of childproof caps to apply 
to gas cans, could save 1,200 families trips to the emergency 
room every year, and the Pool and Spa Safety Act would set a 
much-needed antientrapment standard for pool and spa drains 
sold in the United States.
    I thank you, Mr. Chairman, for today's hearing, and I 
regret the lack of presence of the Acting Chair of the Consumer 
Product Safety Commission. I hope we can get past standing on 
ceremony and deal directly with saving children's lives. I 
welcome the witnesses who we have with us today.
    Thank you.
    Mr. Rush. The Chair now recognizes the gentleman from 
Texas, Mr. Burgess, for 5 minutes.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman.
    As a parent, physician and Congressman, I firmly believe 
our children's safety and security should be our highest 
priority. Through over 25 years of practice delivering 3,000 
babies in north Texas, I can tell you, before I placed a baby 
in the parents' arms, the first question invariably that was 
asked is, ``Is the baby healthy? Is the baby safe?''
    The safety and security of our children is the first thing 
on every parent's mind whether that child is a newborn or is a 
grown adult. The internal instinct is to protect all children. 
It transcends party lines. I think Republicans and Democrats 
alike can agree that our children are our most precious 
resource, and we must nurture and protect them. However, one 
thing that we do not agree on is how this hearing is being run 
today.
    Disappointment. The word does not describe how I feel right 
now about Chairwoman Nord's absence at this committee. Her 
written testimony is very compelling and provides some 
excellent points and suggestions as the acting chairwoman of a 
Federal agency, and this committee should have given her the 
courtesy that she deserved. From my understanding, and I have 
not been here that long, there is absolutely no precedent to 
put agency chairmen and/or commissioners on a panel with 
private-sector witnesses of any kind, and to ask Chairwoman 
Nord to do this is disrespectful to her and to the United 
States Consumer Public Safety Commission.
    Due to the majority's action, this committee is robbed of a 
key insight that could have been provided to and that could 
have benefited our society. The chairwoman also recently 
traveled to China and met with officials about the disturbing 
trends of recalls of Chinese products. The American public 
deserves to hear her recount of the meetings, and by her not 
being here today to discuss this crucial matter in a public 
forum, the majority has inadvertently helped to silence the 
demand for the safety of consumer products imported from the 
People's Republic of China.
    Additionally, we are talking about safety and 
antientrapment standards in swimming pools. That is a good 
thing to be talking about, but right next-door to my district 
in Fort Worth, Texas, we lost several young people and an adult 
in an ornamental pool in downtown Fort Worth, Texas. I would 
have welcomed the opportunity to ask Chairwoman Nord about the 
possibility of additional safety standards that would increase 
the amount of protection, the regulation and the protection for 
people who visit ornamental pools or landscaping pools.
    Mr. Chairman, I was so concerned about this that I was 
considering offering a motion to have the committee rise. I was 
talked off that ledge by the ranking member, so I thank him for 
his input, but let us not forget that it is the U.S. Consumer 
Product Safety Commission that is tasked with the job of trying 
to safeguard our society and our children in particular from 
unreasonable risks of injury and death associated with consumer 
products.
    I do not consider this to be a legitimate hearing to 
critically discuss legislation if the agency charged with 
enforcement is not present to testify. This committee is not 
doing our due diligence to the American public if the Consumer 
Product Safety Commission is not welcomed to the table to 
discuss the four pieces of legislation on the docket today, and 
I will continue to have grave concerns about the applicability 
of certain aspects of the legislation before us, and I am going 
to have continued concerns about the procedural irregularities 
of this hearing. I trust this will not happen again.
    I yield back my time.
    Mr. Rush. The Chair now recognizes the gentleman from 
Indiana Mr. Hill for 5 minutes.

 OPENING STATEMENT OF HON. BARON P. HILL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Hill. I would like to thank Chairman Rush, Vice Chair 
Schakowsky and Ranking Member Stearns for holding this 
important hearing today.
    Mr. Chairman, in addition to my own testimony, I request 
unanimous consent to insert the testimony of Mr. Alan Korn into 
the record. Mr. Korn is the director of public policy and 
general counsel to Safe Kids Worldwide. Safe Kids Worldwide is 
a global network of organizations whose mission is to prevent 
accidental injury, childhood injury, a leading killer of 
children 14 and under.
    Mr. Rush. So ordered.
    Mr. Hill. They have played an important role in encouraging 
ways to improve the safety of America's children. As the summer 
months approach, there will be an unfortunate increase in 
incidences throughout the Nation. In recognition of that fact, 
June is Home Safety Awareness Month and an appropriate time to 
discuss relevant legislation pending before this committee. By 
encouraging the awareness of possible dangers within homes 
across America, we can attempt to reduce injuries and deaths to 
children across the country. The bills we are here to discuss 
today promote the ideas of home safety awareness by seeking to 
protect America's homes and families.
    Mr. Chairman, at our last hearing, I spoke about one bill 
in particular that would go a long way towards reducing 
incidents of child injury and death, and that is House 
Resolution 1721, the Pool and Spa Safety Act. Today I would 
like to reiterate my support for this bill and encourage 
action.
    After this committee's last hearing, I spoke with Nancy 
Baker, who lost one of her children because of the absence of 
the safe drain covers which this bill addresses. I know that 
Nancy is here today, and I want to commend her for her efforts 
to address this issue, and when I was on the phone with her, I 
talked to her a little bit about her courage. The best way to 
say this is not to retreat in sadness over the loss of her 
child. She wanted to make sure that other children did not have 
the same kind of things happen to them, and I applaud her here 
this morning for having the courage to step up and do this, and 
I am very impressed with her efforts.
    It is clear that children can be spared from this 
terrifying situation, and parents can be spared from enduring 
that sort of pain. The steps we take here can help to move us 
towards that goal.
    I am aware that there may be some minor technical concerns 
with the Pool and Spa Safety Act; however, I hope that we can 
all work together to ensure prompt action on this very 
important bill. By doing so, we will realize the goals of Home 
Safety Awareness Month and prevent families in the future from 
enduring the pain caused by avoidable drowning accidents.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Rush. The Chair wants to thank the gentleman and now 
recognizes the gentleman from Kentucky Mr. Whitfield for 5 
minutes of opening statement.
    Mr. Whitfield. Mr. Chairman, I will waive my opening 
statement.
    Mr. Rush. The Chair thanks the gentleman.
    Now we will recognize the gentleman from Kansas, Mr. Moore, 
who is not a member of the committee, but he is a sponsor of 
one of the bills that we are considering today.
    Mr. Moore, you are recognized for 5 minutes. Welcome to the 
committee.

  OPENING STATEMENT OF HON. DENNIS MOORE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF KANSAS

    Mr. Moore. Thank you very much, Mr. Chairman and members of 
the committee. I really appreciate the opportunity to come 
before your committee today to testify in support of H.R. 814, 
the Children's Gasoline Burn Prevention Act of 2007.
    Mr. Chairman, they say that good things come to those who 
wait, but I think children who are the victims of burn injuries 
and death and their families would certainly disagree with 
that. I have introduced this measure with my friend and 
colleague Spencer Bachus of Alabama to allow the CPSC to 
require child-resistant gas caps for portable gas containers. I 
believe our children have waited too long for this commonsense 
consumer protection.
    The 1973 Poison Packaging Prevention Act requires items 
containing dangerous or poisonous materials, such as pill 
bottles and drain openers, be sold with child-resistant caps, 
but gasoline cans are exempt from this requirement because they 
are sold empty even though they are designed solely to contain 
one hazardous, highly flammable liquid and probably the most 
dangerous substance in any of our homes, gasoline.
    H.R. 814 would simply amend section 9 of the Consumer 
Product Safety Act to include child-resistant standards for 
closures in all portable gasoline containers. Allowing these 
cans to be sold with simple twist-off caps is dangerous and 
causes tragic accidents when children come into contact with 
them. Unfortunately, these accidents occur all too frequently. 
In 2003, the Consumer Product Safety Commission released a 
report estimating that, in a single year, about 1,270 children 
under the age of 5 were treated in emergency rooms for injuries 
resulting from unsecured gas cans either through fires or from 
the inhalation of fumes.
    When I introduced this bill, I had a press conference at a 
fire station in my district, and the firemen were there with 
their fire trucks, and the TV cameras were there. And a mother 
brought her little 4-year-old boy over, and he was the cutest 
little thing, Mr. Chairman, running around in little shorts and 
had a short-sleeved shirt on and had a plastic fire hat on, and 
he had horrible burns all over his face and his arms and his 
legs. These burns could have been prevented.
    H.R. 814 has been endorsed by the American Society for 
Testing and Materials Task Group of Standards for Flammable 
Liquid Containers, the World Burn Foundation, the National 
Safety Council, the American Academy of Pediatrics, the 
National Fire Protection Association, Public Citizen, and the 
Office of the Kansas State Fire Marshal. In addition, Mr. 
Chairman, H.R. 814 would not cost the taxpayers one single 
penny, and it is strongly bipartisan.
    During the 109th Congress, the chairman's Gasoline Burn 
Prevention Act garnered 119 cosponsors, Republicans and 
Democrats. Mr. Chairman, this should not be about Republicans 
and Democrats. This is about our children.
    Mr. Chairman, I have seven grandchildren right now, and I 
expect my eighth grandchild by noon today, and I am doing this 
for my grandchildren and for every child in this country to 
protect those children. I was district attorney in my home 
county for 12 years, and I worked a whole lot of child abuse 
cases to protect children, and I am doing the same thing here 
today to protect children from further danger, preventable 
danger and from preventable injuries and death.
    I want to thank you again, Mr. Chairman, for the 
opportunity to appear today before your subcommittee. I hope 
that we can work together to enact this simple, commonsense 
measure that will protect young children and help put their 
parents' minds at ease with regard to gasoline cans stored in 
garages, basements and back porches. The Consumer Product 
Safety Commission should be and must be allowed to adequately 
protect our children.
    Thank you, Mr. Chairman.
    Mr. Rush. I want to thank the gentleman.
     I want to remind the members of the committee that this 
subcommittee and this chairman are concerned about doing the 
people's business. I have respect for pomp and circumstance, 
and I am not disrespectful to any individual, be they members 
of the administration, members of this committee or members of 
the public. I intend to be respectful.
    However, if there is a time restriction, and there are time 
restraints, then the priority of this chairman is to make sure 
that the people's business gets conducted in a timely manner, 
and that was the motivation and is the motivation behind the 
actions of the Chair.
    Mr. Burgess. A parliamentary inquiry, Mr. Chairman.
    The time constraint was the spyware bill; is that correct?
    Mr. Rush. The time restraint was the schedule for the House 
floor, which we had no control over and which we have no 
control over. The Chair does not have any control over the 
schedule on the House floor, and the spyware bill is to be up 
today, and the Chair is scheduled to manage the spyware bill, 
and because of those obligations and conflicts, the Chair 
decided to fold the panels into one panel and to move forward 
with this hearing.
    The Chair did not consider canceling this hearing. The 
Chair did not consider moving this hearing to another date or 
to another time. The Chair was concerned about doing the 
people's business and making it the priority. Hopefully--I 
believe sincerely that anyone, whether or not they sat at a 
table with someone else or not, that that was not going to be 
that much of a big deal.
    Mr. Burgess. Mr. Chairman, there is respect for doing the 
people's business, and I respect you for doing that, but it 
also seems the people's business would be better accomplished 
if we heard from all witnesses involved.
    Mr. Rush. I really wanted to say that the Acting Chairman 
of the Consumer Product Safety Commission was told initially 
that she did not have to be here, that she did not have to 
appear. Just send a staff member. We wanted a staff member. She 
wanted to insert herself, and then she wanted to insert herself 
under certain circumstances and certain conditions that the 
Chair just could not respond to in an affirmative type of way. 
So we have decided to go ahead with the hearing. The 
Commissioner or the Acting Chairperson still has the 
opportunity to send someone over who is a staff member to 
answer the questions and to provide testimony to this 
subcommittee. The opportunity is still there for her, and I 
would certainly encourage her to come forward.
    I believe that the quibbling over who sits where is not a 
proper point of inquiry when we are attempting to do important 
business that the people elected us to get done, and the Chair 
would----
    Mr. Burgess. I do not think so. When we have a protocol, we 
should follow it.
    Mr. Rush. Thank you. We will move to our hearing.
    Mr. Stearns. Mr. Chairman, I ask unanimous consent to put 
in as part of the record the CPSC coalition letter that both 
you and I received.
    Mr. Rush. So ordered. Any other statements for the record 
will be accepted at this time, as well as copies of the bills 
under consideration.
    [The prepared statement of Mr. Butterfield and H.R. 814, 
1699, 1721, and 2474 follows:]

   Prepared Statement of Hon. G. K. Butterfield, a Representative in 
               Congress from the State of North Carolina

    The oversight hearing the Subcommittee on Commerce, Trade, 
and Consumer Protection held nearly a month ago on the Consumer 
Product Safety Commission (CPSC) shed light on the understaffed 
and underfunded conditions at the Commission. It was an 
extremely productive hearing that was successful in laying out 
a framework for potential improvements. The CPSC is charged 
with protecting the public from unreasonable risks of serious 
injury or death from thousands of consumer goods. Many of these 
products have a direct safety implication for children.
    While the safety of all Americans is of critical importance 
to lawmakers, the safety of children is of particular interest 
for this hearing. The Subcommittee on Commerce, Trade, and 
Consumer Protection will discuss several important legislative 
initiatives aimed at improving the consumer product safety for 
children. Not enough is being done to protect consumers--
particularly children.
    H.R. 2474, introduced by Chairman Rush, aims to increase 
the maximum civil penalty for violations under the Consumer 
Product Safety Act. The current limit the CPSC can assess is 
$1.825 million--the bill seeks to increase the limit to $20 
million. Unfortunately, the current penalty is so low that some 
businesses see it simply as the cost of doing business. So 
these companies continue to violate CPSC safety violations, 
putting our children at risk.
    The Danny Keysar Child Product Safety Notification Act--
H.R. 1699--was introduced by Congresswoman Jan Schakowsky. 
Mirroring the National Highway Traffic Safety Administration's 
recall for car seats, H.R. 1699 requires everyday nursery 
products to come with a prepaid postage registration card for 
easy dissemination of recall information. Through this 
legislation, if a product is recalled, more consumers and 
children will be protected.
    The Children's Gasoline Burn Prevention Act--H.R. 814--
would require that the CPSC disseminate standards for portable 
gasoline caps for gasoline containers. Over 1,000 children are 
treated for burns related to gasoline on an annual basis. By 
streamlining these standards far less children will be harmed 
by gasoline.
    Finally H.R. 1721--the Pool and Spa Safety Act--vastly 
increases the safety for consumers who use pools and spas. Over 
250 young children drowned in U.S. pools and spas last year. 
This is a troubling number considering the total amount is much 
higher. The bill requires that all pools and spas sold in the 
United States adhere to anti-entrapment standards which are 
layers of protection that include barriers and safety vacuum 
releases. It also calls for CPSC to establish a grant program 
for the States to encourage successful passage of pool and spa 
safety laws.
    I strongly support these important legislative measures and 
urge passage. This is clearly a substantial first step in 
ensuring our children are properly protected although more must 
be done. The budget for the CPSC needs to be increased and we 
as lawmakers should have an increased vigilance for our 
country's children.
                              ----------                              

[GRAPHIC] [TIFF OMITTED] T2256.001

[GRAPHIC] [TIFF OMITTED] T2256.002

[GRAPHIC] [TIFF OMITTED] T2256.003

[GRAPHIC] [TIFF OMITTED] T2256.004

[GRAPHIC] [TIFF OMITTED] T2256.005

[GRAPHIC] [TIFF OMITTED] T2256.006

[GRAPHIC] [TIFF OMITTED] T2256.007

[GRAPHIC] [TIFF OMITTED] T2256.008

[GRAPHIC] [TIFF OMITTED] T2256.009

[GRAPHIC] [TIFF OMITTED] T2256.010

[GRAPHIC] [TIFF OMITTED] T2256.011

[GRAPHIC] [TIFF OMITTED] T2256.012

[GRAPHIC] [TIFF OMITTED] T2256.013

[GRAPHIC] [TIFF OMITTED] T2256.014

[GRAPHIC] [TIFF OMITTED] T2256.015

[GRAPHIC] [TIFF OMITTED] T2256.016

[GRAPHIC] [TIFF OMITTED] T2256.017

[GRAPHIC] [TIFF OMITTED] T2256.018

[GRAPHIC] [TIFF OMITTED] T2256.019

[GRAPHIC] [TIFF OMITTED] T2256.020

[GRAPHIC] [TIFF OMITTED] T2256.021

[GRAPHIC] [TIFF OMITTED] T2256.022

[GRAPHIC] [TIFF OMITTED] T2256.023

    Mr. Rush.  We have two witnesses now. Will our witnesses 
please come forward.
    Our first witness this morning is Mr. Edmund Mierzwinski, 
who is the Consumer Program Director at U.S. PIRG, the United 
States Public Interest Research Group.
    Our second witness is Ms. Sally Greenberg, who is the 
senior product safety counsel at the Consumers Union.
    We want to thank both of the witnesses for appearing before 
us, and we would ask that you restrict your opening statements 
to 5 minutes. We will first recognize Mr. Mierzwinski.
    Mr. Mierzwinski, you are recognized for 5 minutes for 
opening testimony.

  STATEMENT OF EDMUND MIERZWINSKI, CONSUMER PROGRAM DIRECTOR, 
  UNITED STATES PUBLIC INTEREST RESEARCH GROUP, WASHINGTON, DC

    Mr. Mierzwinski. Thank you very much, Chairman Rush, 
Ranking Member Stearns, Vice Chair Schakowsky, and members of 
the committee.
    The U.S. Public Interest Research Group is pleased to offer 
our views on these important child safety matters before the 
committee today. To those Members unfamiliar with our work, in 
2006, we released our 21st annual toy safety report, building 
on the passage of the 1994 Child Safety Protection Act, which 
was supported by the Consumer Federation of America, the 
Consumers Union, U.S. PIRG, and a number other groups. A number 
of toys have been recalled in response to the passage of that 
legislation and our subsequent work, and we have participated 
in a number of other matters before the Consumer Product Safety 
Commission as well over the years.
    U.S. PIRG is pleased to support the goals of all four of 
the bills before the committee. We strongly support H.R. 1699, 
the Danny Keysar Child Product Safety Notification Act. We 
strongly support H.R. 2474 to increase civil penalties. We 
support the goals of H.R. 1721, the Pool and Spa Safety Act, 
that offer suggested amendments to improve the bill. Similarly, 
we support H.R. 814, the Gasoline Burn Prevention Act, but 
offer suggested amendments to improve the bill.
    The legislation from Vice Chair Schakowsky, H.R. 1699, 
addresses one of the troubling problems that the CPSC faces, 
how to ensure that recalled products are actually tracked down 
and recalled. The legislation would call for an improved 
product registration card mechanism for finding the recalled 
products and for making sure that particularly durable infant 
and toddler products, often which are handed down, often which 
are kept for many years, have labels on them so that they can 
be tracked down if recalled.
    In the past, dual-use warranty cards have had a low trust 
factor among consumers. Quite frankly, consumers have not 
wanted to fill them out because they are afraid of privacy 
invasions from marketing practices of the companies. This bill 
strikes the appropriate response. It states that the 
information that is collected and recall registration cards 
cannot be used for secondary purposes. Safety is better served 
by protecting privacy as well.
    In regard to H.R. 2474, increasing civil penalties, this 
legislation sponsored by you, Mr. Chairman, has a simple goal 
that everyone should support. No company should have a business 
model that has callous disregard for the law's intent to 
protect the public from safety hazards. What I am saying is a 
company should not game the system by deciding that it is 
cheaper to take the chance of paying a small penalty and get 
away with not making safe products. You need a big hammer to 
hit them over the head with. Your bill would give the CPSC that 
big hammer that it needs to hold companies accountable to 
protect the safety of the American public.
    We support, in addition, H.R. 814, the Children's Gasoline 
Burn Prevention Act. As Mr. Moore stated, and as you stated in 
your opening remarks, there is a very simple problem. These gas 
containers are sold empty; therefore, they do not have to meet 
existing childproof standards. We would recommend that the bill 
be expanded to include kerosene containers as well as gasoline 
containers.
    Regarding H.R. 1721, the Pool and Spa Safety Act, this 
laudable legislation by Representative Wasserman Schultz and a 
number of cosponsors was introduced in response to a number of 
horrific tragedies caused by entrapment, entanglement and 
eviscerment hazards posed by the tremendous suction power of 
pool and spa filters. It takes a three-part approach. It 
requires new construction of pools and spas to include drains 
that meet strong safety standards. It establishes a program of 
grants to States to encourage greater safety, and it enhances 
CPSC drowning education programs.
    Our only comments on this bill would be that, as you heard 
at your last hearing on the Consumer Product Safety Commission, 
it is the ``little agency that could.'' It is the little agency 
with a $63 million budget and only 400 professional staff.
    We would simply encourage you to clarify that the purpose 
of the grant program is to expand money to the CPSC. If 
possible, you should include additional new money for someone 
to run the grant program. I note that in Acting Chairwoman 
Nord's testimony that she suggests outsourcing the program with 
the CPSC's getting its costs reimbursed, but that is our 
primary concern, the agency's new project, and it has reduced 
the priority of drowning programs in the last several years 
from a strategic goal to merely a program, so it needs more 
people to handle this important new program, and I hope the 
committee can address that issue.
    I have a number of other ideas about improving the Consumer 
Product Safety Commission, but since this is not an oversight 
hearing, I have left them in my written testimony.
    Thank you.
    Mr. Rush. I want to thank you.
    [The prepared statement of Mr. Mierzwinski follows:]

    [GRAPHIC] [TIFF OMITTED] T2256.024
    
    [GRAPHIC] [TIFF OMITTED] T2256.025
    
    [GRAPHIC] [TIFF OMITTED] T2256.026
    
    [GRAPHIC] [TIFF OMITTED] T2256.027
    
    [GRAPHIC] [TIFF OMITTED] T2256.028
    
    Mr. Rush. Our next witness is Ms. Sally Greenberg, who is 
the senior product safety counsel at the Consumers Union.
    Welcome, Ms. Greenberg. You are recognized for 5 minutes.

 STATEMENT OF SALLY GREENBERG, SENIOR PRODUCT SAFETY COUNSEL, 
                CONSUMERS UNION, WASHINGTON, DC

    Ms. Greenberg. Thank you, Chairman Rush, and thank you, 
Ranking Member Stearns and, of course, Vice Chair Schakowsky, 
who has been such a great leader on product safety for kids 
particularly.
    My name is Sally Greenberg. I am with Consumers Union. I 
really appreciate--we really appreciate--the opportunity to be 
here this morning. We support all four bills that are before 
the subcommittee.
    Let me start with H.R. 2474, which is a bill to raise the 
maximum penalty for violations of the Consumer Product Safety 
Act. I applaud the Chairman for introducing this important 
bill, and I particularly applaud him for his earlier stated 
commitment to doing comprehensive reform of the Consumer 
Product Safety Commission, because that has been a long time in 
coming, and we look forward to working with you on those 
reforms.
    The CPSC is currently empowered to impose fines on 
companies for failing to report safety hazards, but the amount 
is capped at $1.8 million. We think the cap hampers CPSC's 
ability to adequately enforce the reporting requirements under 
15(b) particularly, and we support raising the cap to $20 
million. This increase in potential fines would, we believe, be 
a strong deterrent for any company that might otherwise be 
inclined to flout the law. For some companies, the current cap 
on fines is so low that the threat of a fine will not make a 
dent in the company's bottom line, and I am thinking 
particularly about the $750,000 fine that the CPSC imposed on 
Wal-Mart a few years back for failing to report safety hazards 
with fitness machines. The calculation is that the $750,000 
fine at Wal-Mart was the equivalent of about 1 minute and 33 
seconds of cash register receipts on that corporation.
    I also want to bring to the subcommittee's attention that, 
in 2002, Commissioner Moore, who was then acting chairman of 
the CPSC, told an audience at a product safety conference that 
perhaps some companies would be less likely to stall--he was 
recommending that the cap be lifted entirely and said that 
perhaps some companies would be less likely to stall our agency 
by putting off reporting hazardous products if we had penalties 
that were more commensurate with the harm that they caused.
    CPSC's Web site is replete with examples of companies that 
have numerous reports about products that injure consumers that 
simply did not report those incidents to the CPSC, and I have 
listed four examples of those incidents where you have 
companies that had plenty of time and plenty of information, 
and they just did not get around to reporting it to the CPSC.
    Our greatest concern is child product manufacturers in 
particular, and there is a long history of those manufacturers 
not reporting problems with products that could have prevented 
injuries to children, and the fine level needs to be at a point 
where it serves as a sufficient deterrent to those kinds of 
decisionmakers within companies who are considering not 
reporting to the agency. So we fully support 2474, and thank 
the chairman for introducing it.
    Let me move on to H.R. 1699, the Danny Keysar Child Product 
Safety Notification Act. We strongly support this bill. It 
would require product registration cards to be included in 
durable children's products. We applaud Congresswoman 
Schakowsky and Congressman Fred Upton for their leadership in 
introducing the bill.
    According to CPSC's statistics, an estimated 59,800 
children every year under 5 years old are treated in hospital 
emergency rooms for injuries associated with nursery products. 
We have a very ineffective recall system today that poses 
serious problems for children's products. Moreover, there is a 
long-standing pattern of children's products being a large 
proportion of recalls. It tends to be between one-third and 
one-half of all products recalled every year that are 
children's products.
    The term ``recalled products'' suggests that a product has 
been successfully returned, repaired or replaced. In fact, that 
is rarely the case. Most products that are recalled remain in 
the marketplace and in consumers' homes, and they threaten the 
safety of those consumers who use them. Estimates on successful 
rates of recall for the average product falls somewhere between 
10 and 30 percent, so we need much more effective means for 
informing parents when a product that their child is using 
poses a safety hazard and has been recalled.
    Seventeen-month-old Danny Keysar, as we have heard from 
Congresswoman Schakowsky, died using a recalled product--that 
is just tragic--but the information does not get out there. We 
know this, and we have to do better. That is why H.R. 1699 is 
so important, the registration card system called for in the 
bill. It is not a perfect system. There will not be a perfect 
system. It will represent, I think, a great improvement on what 
we have today, which is really nothing except using the media 
to get out to people, and that misses so many.
    I want to use an example of the Toro Corporation, and I 
also want to note that the CPSC had some very interesting 
hearings themselves several years back on recall effectiveness, 
and they brought in a bunch of companies who had done some very 
interesting work. I can talk about that later because I want to 
address the other bills, but there are many innovative 
approaches to this, and the industry always comes back with, 
``Well, it does not work, and people do not really pay 
attention.'' that is really not accurate. Toro Corporation had 
a 75 to 80 percent return on their recall registration cards 
because they did it the right way, and they made these cards 
very user friendly, and they were not invading people's 
privacy, and that worked for consumers.
    Others have already talked about or had already talked 
about the car seat manufacturer being the model. I think that 
is a good model. I think it is working, and we should use that 
for moving forward on H.R. 1699.
    As for H.R. 814, the Children's Gasoline Burn Prevention 
Act, we are fully supportive of that. We applaud Congressman 
Moore and Congressman Bachus for introducing the legislation. 
Those tragedies that happened in Congressman Moore's district 
are so preventable with this very simple safety measure. Our 
credo at Consumers Union is if you have a product and it proves 
defective or dangerous, and you can fix it for a reasonable 
cost, and you do not affect the utility of the product, you 
ought to move forward very quickly to put those fixes in place. 
I think that is what H.R. 814 does. We have some statistics in 
my written testimony.
    Am I overtime? Oh, OK. I apologize, Mr. Chairman.
    Just one last point on the Pool and Spa Safety Act.
    In my written testimony, we have outlined why we support 
the bill and some of the concerns that we have about how it is 
going to be implemented, but as I said in my initial statement, 
we fully support all legislation and look forward to your 
questions.
    Mr. Rush. Thank you very much.
    [The prepared statement of Ms. Greenberg follows:]

    [GRAPHIC] [TIFF OMITTED] T2256.029
    
    [GRAPHIC] [TIFF OMITTED] T2256.030
    
    [GRAPHIC] [TIFF OMITTED] T2256.031
    
    [GRAPHIC] [TIFF OMITTED] T2256.032
    
    [GRAPHIC] [TIFF OMITTED] T2256.033
    
    [GRAPHIC] [TIFF OMITTED] T2256.034
    
    [GRAPHIC] [TIFF OMITTED] T2256.035
    
    [GRAPHIC] [TIFF OMITTED] T2256.036
    
    [GRAPHIC] [TIFF OMITTED] T2256.037
    
    [GRAPHIC] [TIFF OMITTED] T2256.038
    
    [GRAPHIC] [TIFF OMITTED] T2256.039
    
    [GRAPHIC] [TIFF OMITTED] T2256.040
    
    [GRAPHIC] [TIFF OMITTED] T2256.041
    
    Mr. Rush. The Chair recognizes himself for 5 minutes of 
questioning.
    Ms. Greenberg, do you know whether other similar agencies 
have overall caps on the amount of civil penalties that they 
can assess? Are the CPSC's limitations rare in this instance?
    Ms. Greenberg. I do know that the FTC, for example, does 
not have limits on--it does not cap fines that the agency can 
impose on those who violate the FTC statute. I do not believe 
that NHTSA has a cap on fines that it can impose, and I think 
that the general concept of having a cap on fines for companies 
who violate a law just sort of goes against, I think, common 
sense. You really do not want companies--as Ed Mierzwinski just 
said, you do not want companies figuring that this is the cost 
of doing business, not reporting something.
    Section 15(b) is so important to CPSC because it really 
acts as its early warning system. So I think anything we can do 
to encourage companies and also to deter companies for failing 
to report is really important.
    Mr. Rush. Mr. Moore has, as you indicate in your testimony, 
indicated that he is opposed to caps at all. He wants to 
eliminate them altogether; is that right? I think, in your 
written testimony, the Acting Chairman is not in favor of the 
caps of our bill.
    Do you have any knowledge about whether or not the CPSC--
what their response is to the overall bill?
    Ms. Greenberg. Raising the caps? Well, I remember former 
Chairman Stratton's commenting on caps, and I think one of his 
concerns was it would lead to greater litigation, and I am not 
sure I completely understand that argument.
    I would think that the leadership officials at the CPSC 
would want every possible power that they can muster and that 
Congress would give them to make sure that companies are 
complying with their laws. So it surprised me a little bit that 
the former chairman of the Commission did not want that 
additional power to ensure that companies were reporting for 
this very important early warning system that CPSC has. 
Otherwise, I have not heard compelling arguments about why that 
cap even exists and why it should not be either raised or 
simply there ought to be no cap. I think it impairs the 
effectiveness of the CPSC.
    Mr. Rush. Thank you.
    Mr. Mierzwinski, according to the Acting Chairman's written 
testimony, Ms. Nord's written testimony, she states that the 
agency would need more resources to implement all of the bills 
if they became law, all of the bills that we are considering 
today.
    Please state what your opinion is on the level of 
additional CPSC resources that might be required to implement 
these bills.
    Mr. Mierzwinski. Well, Mr. Chairman, I think that the 
matter of the CPSC reauthorization has not been carried out 
since, I believe, 1990, and the matters have not been 
adequately reviewed on an overall basis, but for these 
particular bills. I think that what we are looking at is that 
the agency has had a diminishing number of full-time 
equivalents; its budget has been relatively flat over the 
years, and we spend very little money on this agency that 
regulates 15,000 separate products. We are asking it to conduct 
a couple of rulemakings to initiate a grant-making process. It 
would seem that it would need at least several new staffing 
slots just to deal with these bills.
    I think the money is probably modest, but I would hope that 
the committee can move these bills and then also move 
separately oversight and possibly a reauthorization that 
results in increasing the resources of the Commission in the 
long run. They may be able to juggle things around with 
existing resources. Although, I do note that, on the pool bill, 
I think it would be useful to have an additional person to 
administer the grant program, and we probably would agree with 
them on that.
    Mr. Rush. Thank you very much.
    The Chair now recognizes the ranking member, Mr. Stearns, 
for 5 minutes.
    Mr. Stearns. Thank you, Mr. Chairman.
    I think, when you have bills like this, I think, as a 
parent of three boys and seeing them around swimming pools when 
they were young, and also experiencing having the gas can in 
the garage and the possibility they could open it themselves, 
it makes you concerned as a parent, and I am very sympathetic.
    Also, though, as a small businessman, I look at the 
economic cost/benefit analysis for some of this, and I was 
struck that, when Dennis Moore was over here talking about his 
particular bill in dealing with the caps on the gasoline cans, 
he mentioned that 1,200 children were in hospitals because of 
it. He did not indicate how many died. I understand from staff, 
roughly there are 80 million children in the United States. So 
as to the cost/benefit analysis, whatever you do, you are 
talking about, because 1,200 ended up in the hospital, it is 
0.000015 of the 80 million, so it is a very small significant.
    Now, one child ending up in a hospital is a tragedy, and a 
death is absolutely unnecessary, and I think what is being 
proposed here is not unreasonable, but the question I have for 
both of you is do you ever take into account the cost/benefit 
analysis here?
    You are dealing with the Pool and Spa Safety Act. As I 
understand it, we have had 300 children who were killed, and 
this is out of 80 million. So do you ever consider the cost/
benefit analysis for--is there one point where you would say, 
``Is 0.000015 such a small percent that it may be not 
significant in the totality in looking at this issue dealing 
with caps on gasoline cans?''
    Ms. Greenberg.
    Ms. Greenberg. I think I would probably go back to our sort 
of working philosophy as a consumer organization and an 
organization that cares very deeply about safety.
    When the Consumer Product Safety Commission was set up, 
there had been a congressional study looking at all kinds of 
terrible injuries that happened to children, and----
    Mr. Stearns. And you take into account the overall 
percentages when you look at this, or you just look at the 
deaths and the incidents?
    Ms. Greenberg. Well, what we look at is can a product be--
--
    Mr. Stearns. Improved regardless of the statistics?
    Ms. Greenberg. Can a product--well, you know, 1,200 kids in 
the hospital is--maybe we evaluate that differently.
    Mr. Stearns. No. I think it is terrible, but I am saying, 
relative to 80 million children, it is a very small percentage.
    Ms. Greenberg. Yes.
    Mr. Stearns. So you are saying you do take the statistics 
into account?
    Ms. Greenberg. What we try to do is look at how much are 
fixed costs, and if it can be done for a reasonable amount----
    Mr. Stearns. Go ahead and do it.
    Ms. Greenberg. We are talking about a gas cap. It is a 
change in design.
    Mr. Stearns. Right. I understand. I think that is a good 
example. I think a gas can can be taken care of much like you 
have got vitamins or you have medicine that has that cap on it 
so that it is childproof. I agree.
    Do you agree with her? Is that pretty much----
    Mr. Mierzwinski. Mr. Stearns, I would agree with her, but I 
would have to say the cost/benefit analysis is only a tool. I 
think it can be easily overused in measuring the value of a 
consumer's life versus the need for a health and safety 
standard. I do not know that it is necessarily the right 
approach in all circumstances.
    Mr. Stearns. But in lots of these cases, the parents of 
these children are delinquent, too. We know that the child ends 
up in the hospital or there is death, but there is some 
culpability for the parents in not supervising their children. 
Wouldn't you agree on that?
    Ms. Greenberg. Well, again, when CPSC was set up, Congress, 
the panel which is a bipartisan panel that set the Consumer 
Product Safety Commission up, was very focused on making 
products safer, not on parents' behavior, because it isn't a 
child's fault if a parent's attention has waned or they have 
been called off to deal with another problem with a child. We 
deal with this all the time in the area of product safety, this 
notion of product misuse or parental negligence or whatever.
    Mr. Stearns. So you don't take that much into account.
    Ms. Greenberg. If we did, there would be a lot more injured 
or dead children today.
    Mr. Stearns. In the areas of increasing civil fines, this 
letter I put into the record for the National Association of 
Manufacturers points out that CPSC has never even gone up to 
the $1.8 million in fine. And now we are asking for it to go up 
to $20 million in fine. So each of the instances you cite does 
not amount to the full penalty authorized.
    What information do you have that a $1.825 million civil 
penalty is not sufficient when there is no evidence they have 
ever used it and now you want to go up by 1,000 percent 
supposedly? So the question is why go up so much when the CPSC 
has not even used the amount that they have as a penalty?
    Ms. Greenberg. We didn't make the decisions that CPSC made 
to impose fines. In my view, in some of the cases much higher 
fines probably were warranted. The powers that be at the CPSC 
perhaps didn't agree with our philosophy on that.
    Mr. Stearns. So you would go up to $20 million.
    Ms. Greenberg. I don't want to commit to a specific number. 
What I do think is important is that the Commission, the CPSC, 
have the ability to impose a fine that is not specifically set 
out. The $20 million fine gives them more leeway to impose 
higher fines. But I don't think when you see the litany of 
companies that fail to report, I don't think the fines are 
serving as an adequate deterrent to nonreporting. We see many, 
many examples of companies that do not come forward and report.
    So I personally believe that there ought be no cap. I don't 
think that companies should have an opportunity to make a cost/
benefit analysis about maybe we won't report because we are not 
likely to get fined the full amount. I don't think that makes 
sense for any Federal agency to have to work under that 
constraint. So that would be my preference. But given that we 
have a $1.825 million, I think $20 million fine is a much 
bigger threat.
    Mr. Stearns. Thank you, Mr. Chairman. I think she is 
indicating that she would go up to $100 million. You are saying 
that if there is no ceiling, in your opinion you could go up to 
$500 million. So thank you, Mr. Chairman.
    Mr. Rush. The Chair recognizes the gentle lady from 
Illinois Ms. Schakowsky for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    I want to talk a little bit about this cost/benefit ratio. 
When we start getting into 1,200 children out of 80 million 
children, that is really not the question. It is 1,200 children 
versus how much would it cost a company to make a small and 
responsible change in their product. And if you want to just 
get into dollar figures, how much does it cost to care for a 
severely burned child in a hospital, for how long, throughout 
their whole life, it is just kind of ridiculous when we are 
talking about a very small cost to improve a product that can 
save 1,200 very precious children. And so I think the argument 
is a little bit specious, especially, as you said, the 
philosophy is let's look at what it would really cost to 
improve a product.
    And so I want to talk a little bit about my bill on the 
recall registration. I have looked at Acting Chairman Nord's 
testimony, and she points out a petition that was acted on in 
2001 and making recall registration cards, and they found that 
this wasn't useful. Well, for one thing, they were talking 
about doing it for all children's products.
    I want to make it very clear that in my bill we are 
specifically listing the products, and they are the durable 
children's products, as you pointed out, Ms. Greenberg, that 
stay in the home for a long time or often passed on to the next 
generation of children. And so we are talking about very 
specific products.
    But the other thing that I wanted to ask you both about is 
that they say that these cards are ignored and returned. And I 
want to once again get on the record, if you would, the 
refutation of that argument, because while no one is claiming 
that this is a perfect mechanism and that it will result in 
every consumer knowing about the recall, is it not true that 
there is evidence of significant improvement? And if I could 
start with you, Ms. Greenberg, and then go to Mr. Mierzwinski.
    Ms. Greenberg. Significant improvement in----
    Ms. Schakowsky. The number of consumers that then know 
about the product recall.
    Ms. Greenberg. Your bill very clearly lays out what the 
card should state. As my colleague pointed out, people are very 
cynical about these recall cards, or these cards in general, 
not the recall cards, but these warranty cards that you get, 
because they ask you all sorts of personal questions, and so 
people don't return them. It is not the model we should be 
looking at.
    With NHTSA, as you pointed out, the number of cards 
returned, NHTSA requires every manufacturer of a car seat to 
include a card, and the card return rate is 10 times what it 
was before the regulation went into place. And NHTSA is very 
specific in its regulation about what the card should say, what 
kind of information it is asking for and what it is not asking 
for. And it is asking for information in case of a recall. I 
have seen these cards. I have sent them in. I bought car seats. 
And they are very good. They say, mail this card now. They are 
postage paid. They do everything short of walking the consumer 
to the mailbox. They make it very easy. And now with cell phone 
portability, number portability, people have cell phone numbers 
that stay with them presumably for life. So there are ways to 
get in touch with consumers. And I think these cards have 
proven their effectiveness.
    We know there are companies like Toro which has found them 
to be very effective when done right. They ask specific 
questions. They are not a marketing effort. They are not 
perfect. There is always going to be a percentage of consumers 
who won't return them. But it gets us many steps ahead of where 
we are today.
    And the Danny Keysar situation where a kid is confronting 
or parents are confronting a product that has been recalled, 
and they didn't know about it, and the kid is injured or killed 
is just an untenable, terrible situation, and we should do 
everything, I think, to try to make sure that doesn't happen 
again. And this is a big step forward.
    Mr. Mierzwinski. Thank you, Representative. And I would 
concur with Ms. Greenberg that the NHTSA situation offers a lot 
of guidance to the CPSC. In addition to their successful card 
programs, think about their successful marketing programs: 
Buckle Up, Kids in the Back. These are programs that work if we 
had a card that we trusted and the CPSC consumer groups would 
get behind it, and we could help you and help the CPSC make it 
work.
    Mr. Rush. The gentle lady's time is up.
    The Chair now recognizes the gentleman from Texas Dr. 
Burgess.
    Mr. Burgess. Thank you, Mr. Chairman.
    Staying on the concept of the card for just a minute, has 
there been any study to look at if the return rate for cards is 
increased if it is coupled with a rebate or something of value 
that would be returned to the consumer if they fill out the 
card?
    Ms. Greenberg. Congressman, I think I can respond to that, 
not with respect to the NHTSA situation, because they don't 
require car manufacturers to give a rebate or reward for 
returning the card, but some companies have done that, and that 
has been a successful strategy.
    As I said, the CPSC held a couple of hearings a few years 
ago on recall effectiveness, and what you had is a bunch of 
companies coming forward and describing some very interesting 
and innovative ways to improve the recall effectiveness. I wish 
the CPSC had gone a few steps further and put some of those in 
place, but be that as it may, what they found is that when they 
offered a reward or a rebate, yes, consumers responded more 
positively.
    Mr. Burgess. Again, the CPSC isn't here today to ask them. 
Kids are growing so fast, so products and toys that are bought 
for the nursery, a child outgrows them before they use up their 
shelf life. And if they have got a younger sibling on the way, 
that is a good thing.
    I have never done this myself, but people in my family are 
great students of a thing on the Internet called eBay. What 
happens when someone sells their product on eBay; are they 
obligated to provide that follow-on information as far as the 
mailing card is concerned?
    Ms. Greenberg. Well, right now, since we don't--maybe with 
car seats it happens. I haven't seen it. But since we don't 
have product registration cards now, it is hard to say whether 
we would be able to incorporate that into eBay.
    Mr. Burgess. So a crib or a beach ball or a baseball or 
something, a small object that a child could ingest, if these 
things are sold on eBay, there is really no requirement for the 
seller to provide that follow-on information?
    Ms. Greenberg. No, Congressman, but I think that is an 
interesting idea.
    Mr. Burgess. If we increase--and we will get to the cap in 
just a minute--but if we increase the cap, of course I can see 
a company might say I am going to offer a rebate thinking this 
cap scares me to death because it is up to $20 million; but 
then is the company that sold the beach ball or the baseball 
glove or whatever, is the company still going to be liable when 
that product is resold on eBay after the child outgrows its 
usefulness?
    Ms. Greenberg. The cap is for reporting incidents related 
to product safety. It is section 15(b) of the Consumer Product 
Safety Act, and that is simply a requirement that companies 
report when they hear about incidents. So I don't think it 
would relate specifically to your eBay scenario.
    Mr. Burgess. At the present time we really don't have a 
good way to track resales at garage sales, even hand-me-downs 
within families, for these products.
    Ms. Greenberg. I, too, wish Commissioner Nord was here, 
because I know the CPSC is doing some interesting, innovative 
work on that.
    Mr. Burgess. Since I am so new at this, talk to me for just 
a minute about the fines. Right now how is that? And either of 
you, please feel free to answer this. Right now the fine is 
$1.875 million or thereabouts. How is that money allocated? If 
a company is fined $1 million, does that money all go to CPSC, 
does it go to the general fund, does the Department of Justice 
get it, does it go to the victim; what happens to the dollars?
    Ms. Greenberg. The U.S. Treasury. It goes into the general 
fund. It goes into the U.S. Treasury. It doesn't go into CPSC's 
budget, if that is what you are asking.
    Mr. Burgess. How much is spent just in the course of 
litigation to recover those monies?
    Ms. Greenberg. I don't have a strong sense of the 
litigation costs for CPSC, but they don't litigate very often. 
I do know that.
    Mr. Burgess. Is there a danger--with a vastly expanding 
cap, is there a danger of an unwillingness to settle on a fine 
because now they are at risk for such a higher settlement that 
more will go to litigation?
    Ms. Greenberg. That is the argument that has been certainly 
put forward.
    Ed, did you want to respond to that?
    Mr. Mierzwinski. I would just say, Congressman, that I 
think that argument is a red herring being put forward by 
companies that are regularly before the CPSC. The way I think 
that this system works today is that companies do their own, if 
you will, benefit/cost analysis, and they say the maximum fine 
is $1.83 million. Wal-Mart only paid $750,000.
    Mr. Burgess. On that issue, is there a danger then for MOFA 
reporting. We expand that fine a whole bunch, and is the CPSC 
just going to be flooded with data from companies that don't 
want to be caught in the situation of not having reported their 
problems?
    Ms. Greenberg. Well, I think it would be useful to look at 
what other agencies have experienced on this issue of fines and 
caps on fines.
    Mr. Burgess. If the Commissioner were here, we could ask.
    Ms. Greenberg. I don't think that has been a problem in 
other Federal agencies, the fact there isn't a cap on fines.
    Mr. Burgess. We should ask the question before we enter 
into that, so it would be a fair question to ask.
    Mr. Chairman, you have been indulgent, and I know we have 
got to get on to other things. I yield back.
    Mr. Rush. Thank you, gentleman.
    The Chair now recognize the coauthor of H.R. 1721, Ms. 
Wasserman Schultz of Florida. She is not a member of the 
committee, but the Chair recognizes her for 5 minutes for 
questions.
    Ms. Wasserman Schultz. Thank you very much, Mr. Chairman. 
And, Mr. Chairman, I want to thank you and Ranking Member 
Stearns for your support of this issue and for including this 
legislation in your hearing today.
    I also want to, although I understand she has already been 
recognized, recognize Nancy Baker, who has been a tireless 
advocate on behalf of this legislation, which is named after 
her daughter Graeme Baker, who drowned in a suction drain 
entrapment accident; and Congressmen Hill, Matheson and Weiner, 
who are members of the subcommittee that are cosponsors of the 
bill.
    I actually have a question for Ms. Greenberg. I noted in 
your testimony your support for pool alarms and their possible 
inclusion in this legislation. Every drowning expert I have 
worked with over the last 10 years has said that pool alarms 
are not the best first line of defense because they only 
address the problem after the child has already fallen into the 
pool.
    Now, since you note in your testimony that pool alarms 
sometimes do, sometimes don't meet the national safety 
standards, the ASTM guidelines, and quite honestly, although I 
think they probably are at about 85 decibels, which is very, 
very loud, in the event that you are standing in the laundry 
room dealing with the practical reality of what happens when 
supervision lapses, if someone is standing in the laundry room 
and their dryer and washing machine are going, and the child 
falls in the pool, and the pool alarm goes off and they don't 
hear it, then we haven't addressed the problem. So can you 
speak to your support for pool alarms, because I sponsored the 
law in Florida which does not include pool alarms, and I remain 
completely unconvinced that that is wise.
    Ms. Greenberg. I confess that I am not an expert in pool 
alarms. I included it because Consumers Union tested pool 
alarms. I think we have got a series of safety devices that are 
all imperfect. Pool alarms is one of them. Hopefully you are 
not in the laundry room. It increases, I think, a parent's or a 
caregiver's opportunity to be notified if a child gets into the 
water and you don't want them there.
    So it is certainly not a perfect solution. We said in our 
testimony, as you noted, that the best strategy for preventing 
kids getting into pools without parental supervision is to have 
a fence around the pool, but we know we can't make that happen 
on a Federal level. That has to be done on the State level. 
That is why your legislation is so good. It encourages States 
to do that.
    But I have a colleague with me who has worked extensively 
on pool alarms, and I would be glad to answer any questions on 
the record or ask Don Mace, who is here from our Yonkers 
office, who is an engineer and worked on standards with pool 
alarms and worked on the testing that we did for Consumers 
Union. Maybe we can talk with you later.
    Ms. Wasserman Schultz. If you can follow up with me, 
because the chairman has extended a courtesy to me as a 
nonmember of the committee, and I would appreciate it.
    And also as a member of the Appropriations Committee, I 
want to tell you both that I fully intend to pursue an 
appropriation for both the grant program and the education 
program if this legislation hopefully becomes law, and really 
have been an advocate on the Appropriations Committee of 
increasing the CPSC's budget. We actually did that in the 
Appropriations Subcommittee on Financial Services yesterday. So 
I sincerely hope--and you will have my full advocacy to make 
sure that it is not absorbed into the existing budget of the 
CPSC.
    So, Mr. Chairman, thank you for the courtesy. I appreciate 
it. I yield back the balance of my time.
    Mr. Rush. Thank you very much.
    That concludes the testimony of the witnesses, and that 
concludes the hearing. Again, I want to thank the witnesses for 
coming forward. I certainly want to reiterate our condolences 
and also our compassion and our thanks to Ms. Baker for 
attending today. And I want to remind members of the 
subcommittee that the record is open for 30 days for additional 
testimony and questions, and submit the questions in writing to 
whomever.
    Thank you so much. Hearing no objections, the subcommittee 
is adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T2256.042
    
    [GRAPHIC] [TIFF OMITTED] T2256.043
    
    [GRAPHIC] [TIFF OMITTED] T2256.044
    
    [GRAPHIC] [TIFF OMITTED] T2256.045
    
    [GRAPHIC] [TIFF OMITTED] T2256.046
    
    [GRAPHIC] [TIFF OMITTED] T2256.047
    
    [GRAPHIC] [TIFF OMITTED] T2256.048
    
    [GRAPHIC] [TIFF OMITTED] T2256.049
    
    [GRAPHIC] [TIFF OMITTED] T2256.050
    
    [GRAPHIC] [TIFF OMITTED] T2256.051
    
    [GRAPHIC] [TIFF OMITTED] T2256.052
    
    [GRAPHIC] [TIFF OMITTED] T2256.053
    
    [GRAPHIC] [TIFF OMITTED] T2256.054
    
    [GRAPHIC] [TIFF OMITTED] T2256.055
    
    [GRAPHIC] [TIFF OMITTED] T2256.056
    
    [GRAPHIC] [TIFF OMITTED] T2256.057
    
    [GRAPHIC] [TIFF OMITTED] T2256.058
    
    [GRAPHIC] [TIFF OMITTED] T2256.066
    
    [GRAPHIC] [TIFF OMITTED] T2256.067
    
    [GRAPHIC] [TIFF OMITTED] T2256.068
    
    [GRAPHIC] [TIFF OMITTED] T2256.069
    
    [GRAPHIC] [TIFF OMITTED] T2256.070
    
    [GRAPHIC] [TIFF OMITTED] T2256.071
    
    [GRAPHIC] [TIFF OMITTED] T2256.072
    
    [GRAPHIC] [TIFF OMITTED] T2256.073
    
    [GRAPHIC] [TIFF OMITTED] T2256.074
    
    [GRAPHIC] [TIFF OMITTED] T2256.075
    
    [GRAPHIC] [TIFF OMITTED] T2256.076
    
    [GRAPHIC] [TIFF OMITTED] T2256.077
    
    [GRAPHIC] [TIFF OMITTED] T2256.078
    
    [GRAPHIC] [TIFF OMITTED] T2256.079
    
    [GRAPHIC] [TIFF OMITTED] T2256.080
    
    [GRAPHIC] [TIFF OMITTED] T2256.081
    
    [GRAPHIC] [TIFF OMITTED] T2256.082
    
    [GRAPHIC] [TIFF OMITTED] T2256.083
    
    [GRAPHIC] [TIFF OMITTED] T2256.084
    
    [GRAPHIC] [TIFF OMITTED] T2256.059
    
    [GRAPHIC] [TIFF OMITTED] T2256.060
    
    [GRAPHIC] [TIFF OMITTED] T2256.061
    
    [GRAPHIC] [TIFF OMITTED] T2256.062
    
    [GRAPHIC] [TIFF OMITTED] T2256.063
    
    [GRAPHIC] [TIFF OMITTED] T2256.064
    
    [GRAPHIC] [TIFF OMITTED] T2256.065
    
                       Statement of David Asselin

     The NAM Coalition on CPSC (Coalition) represents 
manufacturers, distributors, importers or retailers of consumer 
products. All of the members of our Coalition are committed to 
ensuring the safety of consumer products sold in this country. 
The Coalition would appreciate your including this letter in 
the hearing record, and I will be sending the names of 
Coalition members wishing to be added as cosignatories.
     The Coalition supports the important mission of the CPSC. 
The marketplace needs to be free of unsafe consumer products 
that could pose a risk of injury to consumers, particularly to 
our most valuable population, our children. Over the years, the 
agency's budget has not grown as fast as other regulatory 
agencies with comparable authority. CPSC has compensated by 
taking measures to ensure it uses its resources efficiently, 
just as so many manufacturers have had to do in recent years.
     We support increased funding for the CPSC to increase 
import surveillance and compliance, upgrade technology, 
laboratory renovation and for bolstering the staff, 
particularly in technical areas and where retirements are 
impacting the Commission's mission. We believe that the CPSC 
has sufficient authority to carry out its critical mission if 
it is properly resourced.
    The Coalition understands that your subcommittee will hold 
a hearing June 6th on several bills concerning the Consumer 
Product Safety Commission. Two of these bills, H.R. 2474 and 
H.R. 1699 are of concern to the Coalition. H.R. 2474 seeks to 
increase the maximum civil penalty for violations under the 
Consumer Product Safety Act. H.R. 1699 would require certain 
manufacturers to provide consumer product registration forms to 
facilitate recalls of durable infant and toddler products.
    H.R. 2474: Civil penalties actually apply to any violation 
of one of 11 prohibited acts under Section 19 of the CPSA. 
Failure to file a report under Section 15(b) is but one of the 
violations enumerated. The statute needs to be clarified to 
distinguish between instances that involve a failure to report 
incidents that evidence a defect with injury and those that 
involve sale of product that violates a per se requirement.
     Civil penalties are assessed up to $7,000 per violation. 
The maximum civil penalty for any related series of violations 
is currently $1.825 million. Congress has directed the 
Commission to adjust the maximum penalty amounts every five 
years to account for inflation. Originally the maximum amount 
was $500,000, which has more than tripled because of the 
adjustment escalations in the existing enabling statute.
     H.R. 2474 would substantially increase the maximum civil 
penalty for failure to report or violations of section 19. 
Under the bill, any related series of violations would carry a 
maximum penalty of $20 million, or an increase of more than 
1,000 percent from current penalty levels. Such an increase 
could actually prove to be counter-productive to the mission of 
the CPSC.
    Current penalties are more than adequate to deter companies 
from failing to report serious product defects. Companies do 
report defective products, as evidenced by hundreds of 
voluntary recalls conducted each year with the support of the 
CPSC, versus the handful of civil penalty actions announced by 
the Commission. Companies that fail to report not only face 
substantial civil penalties, but also risk bad publicity and 
increased product liability exposure. These factors are 
significant deterrents to any failure to report.
    Increasing the cap on civil penalties to the level 
contemplated by H.R. 2474 could be counter productive. Rather 
than encouraging prompt reporting, it could act as a deterrent 
to companies when they are contemplating a voluntary recall. It 
would change the nature of the present voluntary compliance and 
penalty process to be more adversarial, with more defensiveness 
and pre-litigation maneuvering and less emphasis on getting 
unsafe products out of the marketplace quickly. Such a move 
could also be a financial and administrative burden on the CPSC 
because costly and time-consuming litigation would replace the 
current, almost entirely voluntary, non-litigation process.
     There is no evidence that the current $1.825 million 
penalty cap frustrates enforcement. The Commission has yet to 
impose the current maximum cap of $1.825 million on any company 
for a violation of Section 19. Moreover, in cases involving 
violations of the Flammable Fabrics Act or the Federal 
Hazardous Substances Act, or in cases where the CPSC alleges a 
series of unrelated violations, the Commission has sought 
penalties substantially in excess of $1.825 million. For 
example, in a 2001 lawsuit against Wal-Mart and Icon Health & 
Fitness for alleged failure to report defective exercise 
equipment, the CPSC was able to seek civil penalties of $9 
million for six counts involving various models (applying the 
$1.5 million cap then in effect.) Applying similar multipliers 
to the penalty levels proposed under H.R. 2474, the CPSC could 
have sought penalties of $120 million in the Wal-Mart case, or 
could pursue similar penalties in any case alleging failure to 
report multiple defects, such as cases involving different 
product models. The prospect of such astronomical penalties, 
which could bankrupt many companies, could lead to enforcement 
policies out of all proportion to actual violations.
    H.R. 1699. Manufacturers have been providing consumers with 
product registration cards for years. These cards require the 
consumer to be pro-active. FMVSS 213, the Federal standard for 
child restraint systems, requires manufacturers to instruct 
consumers to register child restraint systems for use in motor 
vehicles upon purchase. Statistics show that approximately 12 
percent of consumers do so. Such products are fairly expensive 
(usually costing upwards of $50) and are associated with 
protecting and saving the lives of children. One would think 
that this would be a strong incentive to register them, but, as 
noted above, that is not the case.
     The low response rate is not the only factor to look at 
when considering product registration cards. The data collected 
and the utility of the information deteriorates over time. 
Census studies indicate that 40 million people change addresses 
annually in the US. The utility of a database is even more 
limited with children's products because they are often 
donated, handed down or sold to other consumers at thrift 
stores and yard sales. The information collected becomes 
ineffective at that point, since the manufacturer has no way of 
contacting the secondary consumer.
     A study conducted by the National Highway Traffic Safety 
Administration in 2002 on product registration cards for child 
safety seats found that the usefulness of the database 
maintained for child safety seats had declined to 10-13 percent 
after only three years.
     The Commission studied this issue in depth for several 
years and concluded that mandating such a card is not 
beneficial. Every recall is different depending on specific 
circumstances and each recall campaign needs to be seen as an 
individual entity, with an action plan developed by the 
manufacturer and CPSC working together to make it the most 
effective as possible. An over-reliance on product registration 
cards will not improve overall recall effectiveness.
     It would be a much better use of resources if the CPSC 
were to continue to work with manufacturers to come up with 
ways to improve overall product recall effectiveness, using the 
power of the Internet and other innovative techniques, rather 
than have the Commission dictate a system that is marginally 
effective.
     In conclusion, the CPSC is considered the global leader in 
the area of product safety due to its domestic programs and 
international initiatives. Other nations are setting up 
programs based on the CPSC model. Coalition members have, in 
the past, been good partners with the CPSC, to institute the 
two reference proposals would be a step back at a time when we 
should be looking forward.

                                 <all>

</pre></body></html>
